                      OFFICE OF INSPECTOR GENERAL
                     CORPORATION FOR NATIONAL AND
                          COMMUNITY SERVICE




                                  Audit of the
                          Points of Light Foundation
                 Grant Numbers 01POLDC002 and 01POLDC003

                             Audit Report Number 03-09
                                November 21,2002




                                    Prepared by:

                           Office of Inspector General
                 Corporation for National and Community Service
                             1201 New York Avenue
                             Washington, DC 20525




This report was issued to Corporation management on February 2 1, 2003. Under the
laws and regulations governing audit follow-up, the Corporation must make final
management decisions on the report's findings and recommendations no later than
August 21, 2003, and complete its corrective actions by February 21, 2004.
Consequently, the reported findings do not necessarily represent the final resolution of
the issues presented.
                                             Audit of the
                                     Points of Light Foundation
                            Grant Numbers 01POLDC002 and 01POLDC003


                                                      Table of Contents



Executive Summary ...........................................................................................................1

Background ..........................................................................................................................1

Objectives, Scope, and Methodology .................................................................................. 2

Results.. ................................................................................................................................3

Schedule of Claimed Costs ..................................................................................................7

Appendices

           Points of Light Foundation's Response .. ... ... .. .. . .. . .. . .. . .. . .. . .. . . . Appendix A

           The Corporation's Response . .. . . . . . . . . ... .. . ... ... ... ... ... ... ... .. . . . . . . .. Appendix B
                                                                                      CORPORATION

                                                                                      FOR NATIONAL




November 2 1,2002

Mr. Robert Goodwin
President and Chief Executive Officer
Points of Light Foundation
1400 Eye Street, NW., Suite 800
Washington, DC 20005-6526

We performed an audit of Corporation for National and Community Service (the
Corporation) funds awarded to the Points of Light Foundation (the Foundation). The
audit included Grant Number 01POLDC002, support for the 2001 National Community
Service Conference and Grant Number 01POLDC003, a legislative earmark grant. The
audit objectives were to: (1) examine the costs incurred to determine whether the
amounts incurred and claimed are allowable under the grant agreement, its terms and
conditions, and applicable Federal law and regulations; and (2) evaluate the internal
control structure to determine whether it is adequate to safeguard Federal funds.

Executive Summary

For Grant Number 01POLDC002 we questioned $6,242, or approximately 3 percent, of
the $208,075 claimed. In addition, based on the work performed, we are recommending
that the Foundation and the Corporation clarify the justification for certain pre- and post-
award costs.

The results of our tests disclosed instances of noncompliance with laws and regulations
for which we are recommending corrective action. The Foundation should ensure that
progress report(s), identifying accomplishments consistent with the established grant
objectives, and its Office of Management and Budget (OMB) Circular A- 133 single audit
reports are provided to the Corporation and to the Federal Audit Clearinghouse,
respectively, in a timely manner.

For Grant Number 01POLDC003 in the amount of $9,978,000, our objective was to
review the fiscal year 200 1 A- 133 audit work papers to determine if we could reasonably
rely on them. We were unable to obtain those work papers and did no further testing of
this grant's costs.

Background

The National and Community Service Trust Act of 1993, P.L. 103-82, which amended
the National and Community Service Act of 1990, established the Corporation.


                                                                                  Inspector General
                                                                                  1201 New York Avenue, NW
                                                                                  Washington, DC 20525
The Corporation, pursuant to the authority of the Act, awards grants and cooperative
agreements to State commissions, nonprofit entities and tribes and territories to assist in
the creation of full- and part-time national and community service programs. Through
the Corporation's grantees, members and volunteers perform service to meet educational,
human, environmental, and public safety needs throughout the nation.

The Corporation's appropriations legislation for fiscal year 2001 specified that not more
than $10,000,000 of the funds made available to the Corporation shall be provided to the
Foundation for activities consistent with the Foundation's purposes as elaborated in Title
42 USC, section 12661 (b).' This earmarked award covered the period from October 1,
2000, through September 30, 2002. On April 24, 2001, the Corporation amended the
award to reflect a reduction of Federal funds due to a .22 percent rescission mandated by
Congress. Accordingly, the grant was reduced by $22,000 to $9,978,000.

During 2000 the Corporation separately awarded the Foundation a grant of $208,075 to
support the 2001 National Community Service Conference, an annual conference that
was held in Minneapolis, MN on June 28 - July 1, 2001. The award period was from
November 1,2000, through August 3 1,2001.

Objectives, Scope and Methodology

Grant Number OIPOLDC002 for $208,075 - Our objective was to examine costs incurred
to determine whether the amounts incurred and claimed were allowable under the grant
agreement, its terms and conditions, and applicable Federal law and regulations. We
requested and examined documentation supporting the final Financial Status Report and
tested the following accounts: Staff Costs and Operations Costs (Meeting Costs, Printing
and Publishing, Postage, Audio Visual Equipment, Travel and Transportation, and Other
Fees).

Grant Number OIPOLDC003 for $9,978,000 - In the fiscal year 2001 A-1 33 audit, this
grant was identified and audited as a major program. Arthur Andersen noted no matters
involving the internal control over financial reporting and its operations, or any matters
involving the internal control over compliance and its operation that it considered to be
material weaknesses. Our objective was to review the work performed by the outside
auditors and, if sufficient, to rely on their work to avoid duplication. Due to the closure
of Arthur Anderson we were unable to review the fiscal year 2001 A-133 work papers.
Since the A-1 33 report had no findings we decided not to perform additional tests.


' 42 USC 5 12661 (b) Purpose:     It is the purpose of this title-
   (1) to encourage every American and every American institution to help solve our most critical social
   problems by volunteering their time, energies and services through community service projects and
   initiatives; (2) to identify successful and promising community service projects and initiatives, and to
   disseminate information concerning such projects and initiatives to other communities in order to
   promote their adoption nationwide; and (3) to discover and encourage new leaders and develop
   individuals and institutions that serve as strong examples of a commitment to serving others and to
   convince all Americans that a successful life includes serving others.
We performed our audit in accordance with generally accepted Government Auditing
Standards issued by the Comptroller General of the United States. These standards
require that we plan and perform the audit to obtain reasonable assurance that the grant
funds were spent in accordance with program requirements.

An exit conference was held with Foundation representatives on November 2 1, 2002.
The Points of Light Foundation's and Corporation's responses to this report are included
as Appendix A and Appendix B, respectively.

Results

In our opinion, except for the questioned costs, the costs claimed on Grant Number
01POLDC002 are allowable under the requirements of OMB Circular A-122.

1. Grant Number 01POLDC003 for $9,978,000

We were unable to review the fiscal year 2001 A-133 work papers. Because the records
are in a third party storage facility, and the audit firm who performed the audit is out of
business, we were not able to gain access to the work papers. We did note that the
Foundation did not provide timely progress reports to the Corporation, as required by the
OMB Circulars and Grant Provisions. We recommend that the required reports be
prepared and submitted consistent with the established timeframes.

2. Grant Number 0 1POLDC002 for $208,075

Allowability of Costs

We questioned $6,625, or approximately 3 percent, of the $208,075 charged to the grant.

The budget period for this grant was 11/1/00 - 813 1/01. Costs for salaries and benefits of
$1,666 were charged to the grant prior to its effective date, while salaries and benefits
costs of $4,959 were charged after the award's end date. OMB Circular A-122,
Attachment B, Number 38, Pre-award Costs states, "Pre-award costs are those incurred
prior to the effective date of the award directly pursuant to the negotiation and in
anticipation of the award where such costs are necessary to comply with the proposed
delivery schedule or period of performance. Such costs are allowable only to the extent
that they would have been allowable if incurred after the date of the award and only with
the written approval of the awarding agency." Also, under the Corporation's Grant
Provisions, General Provision Number 19, Prior Approval Requirement: "The Grantee
must obtain prior written approval from the Corporation before making any significant
changes, such as transfer of the project effort, changes in objectives, scope of work, or
timeline." The Foundation's Vice President of Finance and Accounting indicated that the
nature of the annual conference requires personnel who, on a daily and year round basis,
are working either in the planning, running or closing stages of the project. Frequently,
working on the wrap-up of financial matters on one annual conference that just ended
continues while initial planning efforts have already begun for the following year's
conference.

The Foundation submitted a request for approval of these pre-award compensation costs
to the Corporation's Office of Grants Management on October 8,2002, which is after the
grant period. The Corporation will act on this request during audit resolution. We
recommend that the Points of Light Foundation follow-up on its letter and clarify why it
incurs pre- and post-award costs with the Office of Grants Management.

Test of Compliance

The Foundation did not comply with Grant Provision Number 6 which states, "Grantees
completing the final year of their grant must submit a Final Progress Report that is
cumulative over the entire project period. This Progress Report is due within 90 days
after the close of the grant". As of the date of the exit conference in November 2002, no
progress report was submitted. We recommend that the Foundation submit this required
report as soon as possible.

3. Additional Recommendations

Based on our audit we have identified the following conditions and are making
recommendations accordingly'.

       Provisional and final overhead rates should be negotiated as soon as possible.
       The last approved overhead rate and general administration allocation rate was for
       1999-2000. In 2001, the Corporation finalized a contract with the Department of
       Health and Human Services to negotiate federally approved indirect cost rates on
       behalf of the Corporation. The Foundation submitted its overhead documentation
       for fiscal year 2001 along with additional information that the Department of
       Health and Human Services requested. The Foundation has not received a final
       rate.

       The Grantee should submit A-1 33 audit reports and the data collection forms to
       OMB's designated Federal Audit Clearinghouse on a timely basis. Under OMB
       Circular A-133, recipients must submit the necessary audit within 30 days after
       receipt from the auditor or 9 months from the end of their fiscal year. Listed
       below are the results from our query performed on the Single Audit database for
       the Points of Light Foundation:

           Fiscal Year End             Date Received             Months Late
               9130197                     9/3/98                   2
               9130198                     1/6/00                   6
               9130199                     5/22/00                On time
               9130100                     9116/02                  14.5
               913010 1                    9116/02                  2.5
Distribution

This report is intended solely for the information and use of the Office of the Inspector
General, the Corporation's management, and the Foundation.




8.
 bwd4l.e
J. Russell George
Inspector General
Corporation for National and Community Service
Washington, D.C.


Copy to:
Leslie Lenkowsky, Chief Executive Officer
Michelle Guillennin, Chief Financial Officer
Peg Rosenberry, Director, Office of Grants Management
Dana Rodgers, Program Officer
Gretchen Van de Veer, Director, Leadership Development and Training
                          SCHEDULE OF CLAIMED COSTS

                 Corporation for National and Community Service
                          Grant Number 01POLDC002
                           Points of Light Foundation
                      November 1,2000 - August 31,2001



                                    Claimed        Questioned
                                     Costs           Costs              Notes



Compensation                        $ 37,150       $ 6,242

Meeting Room Costs                    15,650

Printing and Publishing               20,575

Postage                                2,700

Audio Visual Equipment                34,500

Travel and Transportation             82,500

Other                                 15,000


               TOTAL FUNDS          $208.075       $6,242




Note A: An explanation of this questioned cost appears on Page 4 (Results - Grant
Number 01POLDC002).
           APPENDIX A


Points of Light Foundation's Response
January 17,2003



Mr. Terry E. Bathen
Deputy Inspector General
  For Audits and Policy
Office of Inspector General
1201 New York Avenue, NW
Washington, DC 20525

Dear Mr. Bathen:

We are pleased to respond to your draft report on the results of the audit of the Points of
Light Foundation Grant Numbers 0 1 POLDC002 and 0 1POLDC003. We appreciate your
careful consideration and the inclusion of our comments in your report.

We would also complement the Staff and Management of the Office of the Inspector
General in perfomling the audit in a highly professional manner while maintaining open
communications between our staffs. This effort is highly appreciated.

If you would like to discuss our comments please contact Doug Gledhill, SVP & CFO or
Sam Alfa, VP & Controller at (202) 729-8 170 or (202) 729-8 148 respectively.

Sincerely,



Robert Goodwin
President and Chief Executive Officer
Points of Light Foundation
POINTS OF LIGHT FOUNDATION RESPONSE

Grant No. 01POLDC003 for $9,978,000

As recommended, as soon as the FY 2002 A-133 audit is completed by Ernst & Young,
the Foundation will contact the auditors to make the papers available to you for review.
The audit is scheduled to be completed by January 3 1,2003.

As recommended, the Points of Light Foundation will prepare and submit timely progress
reports to the Corporation in compliance with the Corporation for National and
Community Service direction.


Grant No. 01POLDC002 for $208,075

Allowability of Costs

The Foundation has requested a written response from the Corporation for National and
Community Service regarding the decision taken on the pre-award and post-award
compensation costs. In addition to that, the Foundation will monitor those grant dates,
henceforth, in order to avoid such occurrences.

Test of Compliance

The Final Progress Report was submitted in October 200 1, and a copy is attached.
The Foundation will adhere to the recommendation of filing that Progress Report within
the allowable time.


Additional Recommendations

       The Department of Health and Human Services has submitted the overhead rate to
the Corporation for National and Community Service for review and approval. As soon
as a copy of the approved rate is made available to the Foundation, a copy will be
forwarded to your office.

          The A-133 audit reports and the data collection forms to OMB's designated
~ e d e r aAudit
           l     Clearing House for 2001 were submitted timely (a copy attached). The
Foundation, will however adhere to the recommendation of timely submission, and
follow up to ensure that the reports are posted on the website, in order to avoid any such
lateness.
      APPENDIX B


The Corporation's Response
                                                                        CORPORATION

                                                                       FOR NATIONAL
                                                                       -AND     -
                                                                        COMMUNITY




   To:                      Russell George, Inspector General

   Through:                                                 in, Chief Financial Offi

   From:

   Date:                    January 27,2003

   Subject:                 Response to OIG Draft Audit Report 03-09: Audit of the Points of Light
                            Foundation, Grant Numbers 0 1POLDC002 and 0 1POLDC003


   We have reviewed the draft audit report of the Points of Light Foundation grants. Due to the
   limited timeframe for response, we have not yet conducted a comprehensive review, analyzed
   documentation from the grantee supporting the questioned costs, or reviewed the work papers.
   We will respond to all findings and recommendations when the audit is issued and we have
   reviewed the findings in detail.

  However, we do want to respond to the approval of pre-award costs. As noted in the audit, the
  Foundation contacted the Corporation's Office of Grants Management in October 2002 to
  request approval of pre-award costs and costs incurred after the project period ended. Since this
  request came as a result of the audit and after the grant period had ended, the Corporation did not
  respond at the time, instead deciding to consider the request as part of the audit resolution
  process. The costs incurred during the pre-award period were related to the project and in
  accordance with the proposed budget. If the grantee had requested approval to incur costs prior
  to award, the request would have been granted. Similarly, if the grantee had requested a no-cost
  extension to the award, this request would also have been approved. Therefore, we will allow
  the related questioned costs identified in the audit and advise the grantee during the audit
  resolution phase that pre-award costs and no-cost extensions for future grants should be
  requested in advance.

   The audit also notes that the Points of Light Foundation needs to negotiate a new approved
   indirect cost rate. This was completed recently through the Corporation's contract with the
   Department of Health and Human Services and is now in place.




                                                                                                                  OFFICE OF THE




NATIONAL SERVICE: GETTING THINGS DONE                                               1201 New York Avenue, N.W. Washington, DC 20525
                             n d A r ~ l e r ~ wNmoncrl Senior Serrmice Corps
Arnci-iG~rps L C L I ~~ I ~ .Ser~,e                                             Q   telephone: (202) 606-5000 website: www.nationalservice.org
